HHS/OIG-Audit--"Need for Utilization Controls for Ulcer Treatment Drugs Reimbursed Under the Arkansas Medicaid Outpatient Prescription Drug Program, (A-06-91-00001)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Need for Utilization Controls for Ulcer Treatment Drugs Reimbursed Under
the Arkansas Medicaid Outpatient Prescription Drug Program," (A-06-91-00001)
January 2, 1992
Complete
Text of Report is available in PDF format (531 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our final report found that in Arkansas, Medicaid drug utilization review (DUR)
procedures were limited to after-the-fact analysis of drug therapy and are not
as comprehensive as called for by the Omnibus Budget Reconciliation Act of 1990.
Our review showed that about $1.27 million (Federal share $940,594) in cost savings
could have been realized for CY 1989 had the State agency established letter DUR
procedures.